 IMPLEMENTATION REVIEW OF THE 

       FEDROOMS PROGRAM 

  FEDERAL ACQUISITION SERVICE 

REPORT NUMBER A0701671Q/9/P08002 

     DATED FEBRUARY 4, 2008 

   ASSIGNMENT NUMBER A110185 


       SEPTEMBER 29, 2011 

                      Field Audit Office, Pacific Rim Region (JA-9)
                        450 Golden Gate Avenue, Room 7-5262
                             San Francisco, CA 94102-3434


Date:            September 29, 2011

Reply to
Attn of:         Audit Manager, San Francisco Field Audit Office (JA-9)

Subject:         Implementation Review of the FedRooms Program
                 Federal Acquisition Service
                 Report Number A070167/Q/9/P08002
                 Dated February 4, 2008
                 Assignment Number A110185

To:              Steven J. Kempf
                 Commissioner, Federal Acquisition Service (Q)


We have completed an implementation review of management actions taken on our
recommendation for the subject audit report. The Federal Acquisition Service (FAS)
took appropriate and corrective action to address the audit report’s recommendation
through the completion of a business plan. However, we noted that the plan did not
address one of the three obstacles.

Background

The FedRooms Program (FedRooms) provides lodging options for civilian and military
federal travelers on official business and is intended to provide a single lodging search
and booking system with multiple travel benefits and assurances for federal travelers.

Our office completed an audit of the FedRooms program and issued a report on
February 4, 2008. The audit objectives were to determine whether: (1) the FedRooms
program provided federal travelers ease of reservation access, best value, reservation
flexibility, and FEMA compliant hotels; (2) federal travelers were using the FedRooms
Program; and (3) FAS should enhance the FedRooms Program.

We determined that federal travelers were generally not using FedRooms to make hotel
reservations when planning for official business travel. The low usage was attributable
to lack of marketing efforts, traveler’s personal preferences, and not mandating
program usage. We reported that, before any enhancements to FedRooms could be
considered, FAS needed to address the program’s obstacles, which included: (1) no
incentives for federal travelers; (2) no differentiation between the FedRooms and


                                           1
Government rates; and (3) limitation of GSA’s per diem rate for lodging that
discourages hotels from offering room rate reductions.

We recommended that FAS develop a business plan to address the three obstacles
affecting the future viability of the hotel program. In response to the audit report’s
recommendation, FAS indicated in its action plan (Appendix A) that a business plan
would be completed to address the three obstacles facing FedRooms. The Business
Plan (Plan), completed by a travel management consultant, was submitted to FAS in
October 2008.

Objective, Scope and Methodology

The objective of this implementation review was to determine whether FAS has taken
appropriate and corrective steps as outlined in its March 19, 2008, action plan. To
accomplish this objective, we:

   1) Reviewed FAS’s action plan and the audit report, Review of the FedRooms
      Program, Federal Acquisition Service, Report Number A070167/Q/9/P08002,
      issued on February 4, 2008;

   2) Evaluated the Runzheimer International Ltd., Final Report, FedRooms Program
      Business Plan, submitted on October 7, 2008, to determine if action plan steps
      have been completed and if our recommendation was adequately addressed;
      and

   3) Held discussions with agency personnel.

Results of Review

FAS took appropriate and corrective action to address the audit report’s
recommendation through the completion of a business plan. We determined that two of
the three obstacles were addressed in the Plan. However, we noted that the Plan and
FAS’s comments did not address the audit report’s third obstacle: the limitation of the
Government’s per diem rate for lodging. In addition, the Plan did not address how FAS
can get participating hotels in FedRooms to offer room rate reductions even with the
per diem’s built-in control on hotel pricing.

When we requested FAS to determine whether the Plan addressed this obstacle, FAS
responded on September 13, 2011, that the Government’s per diem had no impact on
FedRooms or FAS’s ability to recruit hotels to participate. Further, FAS stated that the
distribution channels and online booking engines are driving travelers to the FedRooms
program and that the per diem program is proving to be an asset more than a liability.
In the coming months FAS intends to further optimize the shared distribution channels.




                                          2
We believe that FAS’s conclusion did not fully address the obstacle. While FAS
claimed that the Government’s per diem rate had no impact on the FedRooms rate, no
comment was provided on the existing limitation that discourages FedRooms hotels
from offering a reduction in the FedRooms rate. Despite the per diem’s built-in price
control, the Government should leverage its buying power. If FedRooms hotels are
experiencing low vacancy rates due to high volume bookings by federal travelers, FAS
should determine the reasons why hotels are not offering rate reductions in the
FedRooms rate. Whatever the conclusion reached by FAS, it must take further action
because neither the Plan nor its explanation addressed this third obstacle.

Action Required

The Commissioner, Federal Acquisition Service (Q), is required to submit a revised
action plan to the GAO and IG Response Branch (BCBB) of the Internal Control
Division (BCB) within 30 days, addressing the audit report’s third FedRooms obstacle.


Should you or members of your staff have any further questions concerning this review,
please contact Joe Eom or me at (415) 522-2744.




PERLA CORPUS
Audit Manager (JA-9)
San Francisco Field Audit Office




                                         3
      APPENDIX A




A-1
                         IMPLEMENTATION REVIEW OF THE
                               FEDROOMS PROGRAM
                          FEDERAL ACQUISITION SERVICE
                        REPORT NUMBER A070167/Q/9/P08002
                             DATED FEBRUARY 4, 2008
                           ASSIGNMENT NUMBER A110185


                          REPORT DISTRIBUTION VIA EMAIL




Commissioner, Federal Acquisition Service (Q)

Assistant Commissioner for Travel, Motor Vehicles, and Card Services (QM)

Director, Travel and Transportation Services (QMCDB)

Director, Internal Control Division (BCB)

Branch Chief, GAO and IG Response Branch (BCBB)

Office of the Inspector General (J)

Assistant Inspector General for Auditing (JA)

Assistant Inspector General for Investigations (JI)

Acquisition Programs Audit Office (JA-A)

Audit Planning, Policy, and Operations Staff Office (JAO)




                                            B-1
